CERTIFICATE OF SERVICE
The following persons have been served via first class mail with the petition for

writ

of certiorari and appendix attached hereto, at the addresses indicated below, on this

12-

day ofNovember 2020:

Solicitor General ofthe United States
Room 5616

Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
Elizabeth Trosman, Esquire
Assistant United States Attorney
555 Fourth Street, NW
Room 8104

Washington, DC 20530
(2oil z1z-Lgoo
Kathleen Gibbons, Esquire
Assistant United States Attorney
555 Fourth Street, NW
Room 8104

Washington, DC 20530

OoD zsz-tsoo

Signed,

Dana E. Hofferber, Esquire
Counsel of Record for Willie E. Ashe, Jr.

DELH
4201 Wilson BIvd. #110, Ste. 235
Arlington, VA22203
delhc'ia@gmail.com
571-310-4081

